January 29, 2021

Via ECF
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Shell Oil Products Co., L.L.C. et al. v. Rhode Island, No. 20-900
Motion to Extend Time to File Response to Petition for Writ of Certiorari
Dear Mr. Harris,
I am counsel of record for Respondent, the State of Rhode Island, in the above-captioned
case. The petition for a writ of certiorari in this matter was docketed on January 5, 2021. The
response is currently due on February 4, 2021. Pursuant to Rule 30.4, Respondent respectfully
requests that the time for filing a response be extended by 60 days, to and including April 5, 2021.
This extension of time is requested due to the press of litigation commitments in other
matters. The extension of time also would facilitate preparation of a response that the undersigned
counsel believes would be most helpful to the Court. Counsel for Petitioners do not object to this
extension of time.
Respectfully submitted,
/s/ Neil F.X. Kelly
Assistant Attorney General
Deputy Chief, Civil Division
Counsel of Record for Respondent
State of Rhode Island
cc: All Counsel of Record

